<html>
<title> - A REVIEW OF U.S. DIPLOMATIC READINESS: ADDRESSING THE STAFFING AND FOREIGN LANGUAGE CHALLENGES FACING THE FOREIGN SERVICE</title>
<body><pre>[Senate Hearing 111-404]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-404

                 A REVIEW OF U.S. DIPLOMATIC READINESS:
                  ADDRESSING THE STAFFING AND FOREIGN
                       LANGUAGE CHALLENGES FACING
                          THE FOREIGN SERVICE

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs






                  U.S. GOVERNMENT PRINTING OFFICE
53-842 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                     Lisa M. Powell, Staff Director
             Joel C. Spangenberg, Professional Staff Member
             Jessica K. Nagasako, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
          Thomas A. Bishop, Minority Professional Staff Member
                   Benjamin B. Rhodeside, Chief Clerk










                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3

                               WITNESSES
                      Thursday, September 24, 2009

Nancy J. Powell, Director General of the Foreign Service and 
  Director of Human Resources, Department of State...............     5
Jess T. Ford, Director, International Affairs and Trade, U.S. 
  Government Accountability Office...............................     7
Ronald E. Neumann, President, American Academy of Diplomacy......    18
Susan R. Johnson, President, American Foreign Service Association    20

                     Alphabetical List of Witnesses

Ford, Jess T.:
    Testimony....................................................     7
    Prepared statement...........................................    39
Johnson, Susan R.:
    Testimony....................................................    20
    Prepared statement...........................................    55
Neumann, Ronald E.:
    Testimony....................................................    18
    Prepared statement by Hon. Thomas D. Boyatt..................    50
Powell, Nancy J.:
    Testimony....................................................     5
    Prepared statement...........................................    33

                                APPENDIX

Background.......................................................    62
GAO Report titled ``Department of State, Additional Steps Needed 
  to Address Continuing Staffing and Experience Gaps at Hardship 
  Posts,'' GAO-09-874, September 2009............................    68
GAO Report titled ``Department of State, Comprehensive Plan 
  Needed to Address Persistent Foreign Language Shortfalls, GAO-
  09-955, September 2009.........................................   116
Responses to questions submitted for the Record:
    Ms. Powell...................................................   156
    Mr. Ford.....................................................   172
    Ms. Johnson..................................................   173

 
                 A REVIEW OF U.S. DIPLOMATIC READINESS:
                  ADDRESSING THE STAFFING AND FOREIGN
                       LANGUAGE CHALLENGES FACING
                          THE FOREIGN SERVICE

                              ----------                              


                      THURSDAY, SEPTEMBER 24, 2009

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-342 Dirksen, Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    I want to welcome our witnesses. I look forward to a good 
hearing today, and thank you very much for being here.
    Today's hearing, ``A Review of U.S. Diplomatic Readiness: 
Addressing the Staffing and Foreign Language Challenges Facing 
the Foreign Service,'' will examine the results of two 
Government Accountability Office (GAO) reviews of diplomatic 
readiness at the State Department.
    Diplomatic readiness means having the right people, with 
the right skills, in the right place, at the right time, to 
carry out America's foreign policy. And before I continue, I 
just want to say, while I was saying that, I couldn't help but 
think about anybody but Senator Voinovich, because this is his 
statement.
    Senator Voinovich. I stole it from David Walker. 
[Laughter.]
    Senator Akaka. GAO's reports make it clear. The State 
Department's diplomatic readiness has been consumed by current 
operations and now it must focus on rebuilding its 
capabilities.
    The State Department struggles in particular with staffing 
and experience gaps at hardship posts. Mid-level gaps in public 
diplomacy are especially acute. GAO found that an ongoing 
shortage of Foreign Service Officers (FSOs) has led to an over-
reliance on junior officers working in positions meant for more 
senior officers. This undermines diplomatic readiness as junior 
officers handle duties without adequate preparation and 
experience and senior diplomatic leaders spend more time 
assisting junior officers.
    I urge the Department to follow GAO's recommendation to 
fill hardship post positions with at-grade officers and 
thoroughly evaluate the incentives that it offers to FSOs 
considering these assignments.
    Foreign language gaps aggravate the staffing shortfalls and 
are limiting the effectiveness of U.S. diplomacy. According to 
GAO, 73 percent of Foreign Service Officers serving in 
Afghanistan and 57 percent of FSOs serving in Iraq do not meet 
the language proficiency requirements of their positions. One 
number that especially troubles me for strategic reasons is the 
40 percent language shortfall among FSOs serving in the Near 
East and South and Central Asia.
    This is the third time this decade that GAO has recommended 
that the State Department take a strategic and systematic 
approach to addressing its language shortcomings. I believe the 
Department needs to fully commit to a strategic effort that 
involves its senior leadership and produces the meaningful 
performance measures and objective language proficiency 
analysis that GAO has called for.
    The State Department is not alone in its struggle for 
language proficiency. As a Nation, the United States lags far 
behind other nations in foreign language proficiency, with less 
than 10 percent of its citizens being able to speak another 
language fluently. While the State Department needs a strategy 
for addressing its language shortfalls, the Nation as a whole 
needs one too. We need more Americans both inside and outside 
of government to have the language skills that will support our 
national security and economic stability.
    Earlier this year, I reintroduced the National Foreign 
Language Coordination Act to address our government-wide 
language gaps. This bill would require the appointment of a 
National Language Advisor, the formation of a National Foreign 
Language Coordination Council, and the development of a 
National Foreign Language Strategy. Leadership in this effort 
must be comprehensive, as not one sector of government, 
industry, or academia has all of the needs for language and 
cultural competency or all of the solutions.
    The Obama Administration and the State Department 
understand the need and have requested funding for hundreds of 
additional Foreign Service Officers. This growth in officers 
will provide sufficient staff and resources to allow for long-
term foreign language training and other professional 
development without interfering with the Department's 
operations.
    But as we saw earlier this decade, with the former 
Secretary of State Colin Powell's Diplomatic Readiness 
Initiative, these personnel and training gains can be quickly 
depleted if the strategic situation changes and long-term 
strategic workforce planning and resourcing are not firmly in 
place.
    I look forward to hearing more about the issues affecting 
diplomatic readiness. We are fortunate that momentum is on our 
side and that there is a broad consensus that our Foreign 
Service needs to be supported.
    Let me now call on Senator Voinovich for his opening 
statement. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. First of all, Mr. Chairman, I am deeply 
grateful that you are holding this hearing, as you have held 
hearings since you have been the Chairman of this Subcommittee.
    I have been very concerned about the management of the 
State Department. I was a member of the Foreign Relations 
Committee and got involved with Colin Powell and Dick Armitage 
about the management of the Department, the human capital 
challenges that it faced, and the concern I had for the esprit 
de corps within the Department.
    When Secretary Rice took over, I was very concerned whether 
or not we would continue the effort that was made by Colin 
Powell and by Armitage, and unfortunately, it wasn't. I think 
we fell behind on some of the things that should have been 
done, and at the same time we were doing that, our public 
diplomacy also hit its lowest level.
    I think with the election of President Obama, we have a new 
lease on life in terms of our public diplomacy, but our smart 
power must be supported by the infrastructure in the State 
Department.
    So I just thank you, Senator Akaka, for what you have done. 
Last year, this Subcomittee held several hearings examining the 
impact of chronic understaffing. At that time, one out of every 
five employees held a job designated for a more experienced 
person. The State Department had identified a training and 
readiness gap of 1,030 positions, about 15 percent of its 
workforce.
    After that hearing, Congress received the American Academy 
of Diplomacy's report, ``A Foreign Affairs Budget for the 
Future,'' which found that the State Department lacked the 
people, competencies, and funding to meet the U.S. foreign 
policy demands effectively. And that report, which we shared 
with Secretary Clinton before her confirmation, called for an 
increase of more than 4,000 employees in the Department by 
2014, accompanied by a significant investment in training. As 
Secretary Gates observed, we faced a situation that no longer 
could be ignored because of our reliance on hard power.
    The Commission on Smart Power emphasized the fact that our 
success in public diplomacy depends in large part upon building 
long-term people-to-people relationships. Nine months into 
office, the Administration, through the leadership of Secretary 
Clinton and General Jones, has rightly focused on strengthening 
our smart power. Our best military strategies will do little to 
meet new realities and emerging challenges without the 
personnel to improve our global posture through diplomacy.
    Congress heard the message and I believe will continue its 
effort to provide for an increase in personnel and enact a 
permanent solution to the pay gap facing junior employees 
assigned to overseas posts. I applaud Secretary Clinton's 
efforts to rebuild our diplomatic corps and know our Nation 
will benefit from the men and women who have joined the Foreign 
Service, motivated by the ideals of public service. I am 
pleased she recognized the importance of the Deputy Secretary 
for Management Position, and I am encouraged by Jack Lew's 
efforts.
    I would like to say, Senator Akaka, I was with Ben Cardin 
and went to the Organization for Security and Co-operation in 
Europe (OSCE) meeting in Lithuania, and then I traveled for a 
day up to Latvia. It is just unbelievable how happy the people 
in the State Department are that we finally recognized the 
locality pay situation that they face and I think it is really 
important that we understand how important it has been to them 
and try to make sure that we talk to the Chairman of the 
Foreign Relations Committee, Senator John Kerry, about enacting 
a permanent solution.
    So many of the challenges that we face are ones we had not 
anticipated. However, additional resources are a part of the 
solution. Our increased investment and growing overseas 
presence requires more careful attention to be given to the 
type of strategic planning required to make measurable progress 
in our diplomatic readiness. Although it may be tempting to 
rush personnel to post, the opportunity to rebuild the Foreign 
Service doesn't come along too often. Otherwise, we diminish 
our ability to foster democratic principles that will affect 
both our children and our grandchildren.
    Each of us are gathered in this room today because we know 
that strengthening our diplomatic corps is critical to ensuring 
American national security and economic vitality. While some 
might tire at the thought of crafting a remedial strategic 
plan, we all know that which gets measured gets done. I am 
hoping, Mr. Chairman, that we get a plan from the State 
Department with some measurable goals and, of course, metrics, 
so that there is no difference of opinion between the 
Government Accountability Office folks and the State 
Department--which we have seen too often. We come to a meeting 
and the Government Accountability Office says one thing, the 
State Department says another, and I always say to them, why 
don't you just get your heads together and try to work 
something out, agree on a plan, agree on the goals, agree on 
the metrics, and we can make music.
    So I am hoping that as a result of this hearing, that we 
will maybe see that plan so that 6 months from now, the 
Chairman of this Subcomittee and I, can see how the State 
Department is doing, and also during that period of time have 
you give us a chance to see, if there are some things that we 
can do to help. That is what we are here for. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    And now, I want to again welcome our panel and to introduce 
you. Nancy J. Powell, who is the Director General of the 
Foreign Service and Director of Human Resources at the 
Department of State, and Jess T. Ford, the Director of 
International Affairs and Trade at the U.S. Government 
Accountability Office.
    It is the custom of this Subcommittee to swear in all 
witnesses and I would ask you to please stand and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give the Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Powell. I do.
    Mr. Ford. I do.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be part of the record. I would also like to 
remind you to please limit your oral remarks to 5 minutes.
    Ms. Powell, will you please proceed with your statement?

   TESTIMONY OF NANCY J. POWELL,\1\ DIRECTOR GENERAL OF THE 
FOREIGN SERVICE AND DIRECTOR OF HUMAN RESOURCES, DEPARTMENT OF 
                             STATE

    Ms. Powell. Mr. Chairman, and Ranking Member Voinovich, 
thank you for the opportunity to appear before you today to 
address the Department of State's efforts to meet the staffing 
and foreign language challenges we face as we strive to meet 
our Nation's foreign policy objectives.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Powell appears in the Appendix on 
page 33.
---------------------------------------------------------------------------
    I appreciate your interest in the issues raised by the two 
GAO reports we are considering today. The Bureau of Human 
Resources worked closely with the GAO teams over a period of 
months and welcomed their recommendations. The Bureau has the 
critical responsibility of strengthening American diplomacy 
through our people.\1\
---------------------------------------------------------------------------
    \1\ The GAO reports referred to appear in the Appendix on pages 68 
and 116 respectively.
---------------------------------------------------------------------------
    As you stated, our principal task is ensuring that we have 
the right people with the right skills in the right places at 
the right time. We are very grateful that Congress has 
appropriated funds to improve our ability to accomplish this 
mission in a highly dynamic global environment. I am confident 
that these resources have set us on the right path to address 
the diplomatic challenges of today and tomorrow. That said, we 
have much catching up to do, as reflected in some of the GAO's 
findings.
    We know that we must continue to reach out beyond the 
embassy to influence public opinion and expand our diplomatic 
presence where our interests are most at stake. We have 
increased the number of positions at difficult, potentially 
dangerous posts that are essential to our foreign policy 
objectives. We have also increased the language designated 
positions by 33 percent since 2002.
    While our mission has grown considerably over the past 10 
years, our staffing has not kept pace. Due to a lack of 
resources, we have had to make difficult decisions as to which 
positions to fill and which to leave vacant, whether to leave a 
position empty for the months it takes to train a fully 
language qualified officer or sacrifice part of or all of the 
language training. These have not been easy choices. We 
prioritize as dictated by our foreign policy goals. As a 
result, we have fully staffed high priority posts, such as 
Afghanistan and Iraq, but have not been able to meet all the 
needs of other posts or even of our Washington headquarters.
    Fortunately, that is beginning to change. With the 
additional hiring authorized by Congress, we launched Diplomacy 
3.0 in March 2009 and expect to bring on board 1,200 new 
Foreign Service and civil service employees above attrition in 
fiscal year 2009. With your continued support, we will hire 
another 1,200 more in fiscal year 2010. This is the first step 
in achieving a downpayment on Secretary Clinton's goal to 
increase the size of the Foreign Service by 25 percent by 2013.
    Our professionals are working to ensure that these new 
employees will be fully prepared to meet the challenges at hand 
and trained to pursue their work as effectively as possible. As 
these much-needed new hires, and those yet to come, are trained 
and move into positions, the system should come into alignment 
and the gaps in diplomatic staffing should be reduced. That is 
our goal, and, I am sure, yours, as well.
    Many of the issues raised by GAO are directly related to 
these staffing shortages. Additional staffing will enable us to 
begin filling vacancies at posts as well as ensure our 
employees can complete the training they need to most 
effectively fulfill our mission.
    Approximately two-thirds of our Foreign Service posts are 
now designated as hardship posts, a considerable increase from 
32 years ago when I joined the Foreign Service. In addition, 
more than 900 positions are designated as unaccompanied or 
limited accompanied for reasons of hardship or danger, an 
increase from just 200 such positions in 2001.
    With insufficient officers to fully staff all of our posts, 
we have had to prioritize which positions to fill and which to 
leave vacant. We value service at hardship posts, and I am 
proud to say that our dedicated employees continue to step 
forward. We agree with GAO that we can better assess the impact 
of our individual incentives and allowances and are seeking 
more effective methods to do so. I would like to emphasize that 
many of these incentives may not be quantifiable, but we will 
be working to try to take a look at all of them.
    We appreciate that GAO acknowledged our success in staffing 
Afghanistan and Iraq, the two unaccompanied posts that are 
among our highest foreign policy priorities. We also agree with 
GAO that the Department should link all of its efforts to meet 
foreign language requirements. We are in the process with a 
working group that I have established in the last 2 weeks to 
put together a more strategic look at the language staffing 
needs and our training capabilities.
    It is appropriate that we are reviewing these two GAO 
reports together, and they come at a most welcome time. The new 
State Human Resources (HR) Department leadership team looks 
forward to using these reports to help guide our efforts to 
address our staffing and readiness challenges.
    On behalf of the State Department, I want to again thank 
the Congress for the resources provided through Diplomacy 3.0 
that are beginning to allow us to address our human resource 
needs and encourage you to continue that with the 2010 budget.
    Mr. Chairman, thank you very much.
    Senator Akaka. Thank you very much, Ambassador Powell.
    Mr. Ford, will you please proceed with your statement?

 TESTIMONY OF JESS T. FORD,\1\ DIRECTOR, INTERNATIONAL AFFAIRS 
        AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ford. Mr. Chairman, and Members of the Subcommittee, I 
am pleased to be here today to discuss U.S. diplomatic 
readiness, in particular, the staffing and foreign language 
challenges facing the Foreign Service.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ford appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    The State Department faces an ongoing challenge in ensuring 
that it has the right people with the right skills in the right 
places overseas. In particular, the State Department has had a 
long, difficult time of staffing its hardship posts, many in 
places that are difficult to work, such as Beirut and Lagos, 
Nigeria, where conditions are difficult, sometimes dangerous, 
and living conditions can be extreme. But many of them also 
need a full complement of staff because they are part of our 
foreign policy priorities.
    The State Department has also faced persistent shortages 
with staff in critical language areas, despite the importance 
of foreign language proficiency in advancing U.S. foreign 
policy and economic interests overseas.
    My statement today is based on two GAO reports which were 
issued 2 days ago. I am going to briefly summarize them.
    We found that despite a number of steps taken over the 
years, the State Department continues to face a persistent 
staffing and experience gap at hardship posts, as well as 
notable shortfalls in foreign language capabilities. A common 
element of these problems has been a longstanding staffing and 
experience deficit which has both contributed to the gaps at 
hardship posts and fueled the language shortfall by limiting 
the number of staff available for language training.
    The State Department has undertaken several initiatives to 
address these shortfalls, including multiple staffing increases 
intended to fill the gaps. However, the Department has not 
undertaken these initiatives in a comprehensive and strategic 
manner. As a result, it is unclear when the staffing and skill 
gaps that will put our diplomatic readiness at risk will close.
    I am going to cite some of the numbers in our reports. As 
of September 2008, the State Department had a 17 percent 
average vacancy rate at its greatest hardship posts overseas. 
Posts in this category include such places as Peshawar, 
Pakistan, and Shenyang, China. This 17 percent vacancy rate was 
nearly double the average vacancy rate at posts with no 
hardship differential.
    About 34 percent of mid-level generalist positions at the 
posts with the greatest hardship are filled with officers at 
grades below the requirement. For example, over 40 percent of 
the officers' positions in Iraq and Afghanistan were filled by 
Foreign Service Officers at grades below the assignment 
requirements.
    In the area of foreign language, 31 percent of Foreign 
Service Officers did not meet the foreign language requirement 
for their position. Forty percent of them in Near East, South, 
and Central Asia did not meet the requirement. As you noted in 
your opening statement, 73 percent in Afghanistan and 57 
percent in Iraq did not meet the language requirement. Over 
half of the State Department's Foreign Service specialists do 
not meet the foreign language requirement, and that is 740 
people.
    Mr. Chairman, this has serious implications for our 
diplomatic readiness. During our overseas field work and in 
conversations with a number of former and current senior 
officials at the State Department, we found that staffing 
inexperience and foreign language gaps diminish diplomatic 
readiness in several ways, including decreasing our ability to 
get good reporting coverage, loss of institutional knowledge, 
and general experience in conducting our foreign policy 
overseas.
    To cite a couple of examples, in Russia, there was a vacant 
position there because the officer left for a tour in 
Afghanistan, and as a consequence, according to officials 
there, the vacancy slowed negotiations between the Russians and 
the U.S. Government, and the Russians regarding military 
transit to Afghanistan. Consular officials in other posts we 
visited cited language skill gaps that indicated that they were 
not sure whether they made appropriate adjudication decisions 
on visas. We had a number of other examples which we cited in 
our reports, but I won't go into them now.
    Mr. Chairman, the State Department is taking actions to 
address many of these gaps. You have just heard the Director 
General talk about some of the things that they are doing to 
address issues in our report, so I am not going to go over 
those, but there are two key findings in our report that I want 
to touch on.
    First, we believe the State Department needs to 
systematically evaluate its incentive programs to staff 
hardship posts. The financial incentives cost millions of 
dollars every year, but the State Department has not evaluated 
whether these financial incentives have been effective. We 
cited in our report that the State Department did not comply 
with a 2005 Congressional requirement to report on the 
effectiveness of increasing hardship and danger pay to fill 
difficult positions. The State Department has also not 
evaluated its non-financial incentives, such as promotion 
consideration and shorter tours of assignments. Without full 
evaluation of hardship incentives, the Department cannot obtain 
valuable insights that could help them guide resource decisions 
and address some of the gaps that I cited earlier.
    The second major issue in our language report is that the 
State Department has not developed a comprehensive, strategic 
approach to dealing with its foreign language requirements. The 
State Department's workforce and other planning documents are 
not linked to each other and do not contain measurable goals, 
objectives, resource requirements, or milestones for reducing 
the foreign language gap. Moreover, as with the case of 
hardship post staffing, the State Department has not assessed 
the Foreign Language Incentive Programs to determine whether 
they are attracting sufficient staff to meet their foreign 
language needs.
    We made several recommendations in our report to address 
these two problems. Mr. Chairman, I am going to stop here and 
would be happy to answer any of your questions.
    Senator Akaka. Thank you very much, Mr. Ford.
    Ambassador Powell, the American Academy of Diplomacy 
recommends that the State Department's priorities for 
allocating all new personnel should be to first fill existing 
gaps and vacancies and then move forward with establishing 
training positions. How does the Department plan on allocating 
its increased number of Foreign Service Officers?
    Ms. Powell. Mr. Chairman, with the Diplomacy 3.0 personnel 
that have come in during this fiscal year, we have taken care 
of the gaps and vacancies that were appropriate at that level 
for our entry-level people. The positions that had been frozen 
are being thawed this year. They will not be frozen. Where an 
entry-level person or an arrangement could be made for a mid-
level person to take a more senior position, we have moved it 
down, and we have been able to use the new hires this year to 
close most of those gaps at those levels.
    Second, we are now in the process, since I came on board, 
of looking at new positions that will be created for the 
entrants coming in, starting in January next year. We are in 
the process of working with our posts, with our regional 
bureaus, and with others in the State Department to take the 
Secretary's foreign policy priorities, to take the needs that 
had been identified in our planning documents over the past 3 
years, and to take a look at our training needs, particularly 
for language, and then ask each of these participants in the 
process to present us with their list of proposed positions 
based on the fact that in January, there will be approximately 
200 positions, and then in June, there will be approximately 
300 positions.
    We will be reviewing the first tranche of those to see if 
they have met those criteria starting right after the first of 
October. We hope to have those assignments made in early 
January with the class that is coming in at that time, and then 
throughout the fiscal year 2010.
    Senator Akaka. Ambassador, in your response to GAO's report 
findings, the State Department indicated that it will begin to 
close language gaps in 2011. Also, according to your written 
testimony, the State Department plans on significantly reducing 
its mid-level experience gap by 2012. How long will it take 
before the State Department can expect to fully eliminate both 
its language and mid-level experience gaps, and does the 
Department have a strategy in place to do so?
    Ms. Powell. This is what we are trying to develop with 
Diplomacy 3.0 as we create these new positions. I don't have a 
precise answer to your question, partially because one of the 
things we are dealing with is the group from the mid-1990s when 
we had very little hiring. We were below attrition. That is 
going to continue to follow through their careers. That right 
now is at the mid-level. It will continue to go.
    We anticipate that those who have followed over the past 
few years will be entering into the mid-level years, as 
indicated in the testimony and in the response, starting in 
2012 in particular. Using the training float or the training 
positions that we anticipate being created starting this next 
year with fiscal year 2010 money and positions, many of those 
people will not reach post for approximately a year. They are 
going into hard language training. Some of the mid-level 
training is, in fact, for 2 years. So you will see improvements 
in the numbers, but it is going to take some time because of 
the length of training for our hard and super-hard languages.
    Senator Akaka. Ambassador, in 2006, the Bush Administration 
launched the National Security Language Initiative (NSLI) in 
response to the findings of the Department of Defense National 
Language Conference. NSLI was to shore up our national security 
language needs by coordinating efforts through the Departments 
of State, Defense, and Education, and the Office of the 
Director of National Intelligence. While I support the intent 
of NSLI, I felt that it was too limited to be truly effective.
    Can you tell me if NSLI is continuing in this 
Administration and if coordination among agencies is being 
expanded to address the government's language needs?
    Ms. Powell. Mr. Chairman, this is the first time I have 
heard of NSLI. I will have to go back and get you details. I 
apologize, but it is something I don't know the answer to.
    Senator Akaka. Thank you. Will you please do that?
    Ms. Powell. I will do that.
    Senator Akaka. Yes. Ambassador, we will look forward to 
that.
    Mr. Ford, in your report on the State Department's language 
capabilities, you state that there is a widely-held perception 
among FSOs that the State Department does not adequately 
account for time spent in language training when evaluating 
officers for promotion. This could inhibit the improvement of 
the State Department's language capabilities. Could you please 
elaborate on this perception and steps the Department could 
take to correct it?
    Mr. Ford. Sure. The issue you are referring to, in our 
conversations with a number of senior former and current State 
Department officials and with the number of officers we met 
overseas at all different levels, including junior officers, 
there is a perception that going away for training for a year 
or possibly 2 years, in the case of the very difficult 
languages, is not an incentive for promotion, that the 
Department tends to value people who are on the job doing their 
jobs and doesn't give as much credit to people who are in 
training.
    The fact of the matter is, we have not seen any good data 
from the Department to verify or refute that perception. I can 
tell you that perception exists among several Foreign Service 
Officers that we met with in the course of doing our work, but 
we haven't seen good data from the Department about whether or 
not, in fact, in their promotion consideration process, people 
that have, in fact, gone away from training have been fairly 
treated compared to those who were serving in their positions 
overseas.
    So, yes, the perception is real, but I can't tell you 
whether or not the data would suggest that it is real, that, in 
fact, they are being treated fairly or not.
    Senator Akaka. Before I call for questions from Senator 
Voinovich, let me finish this question by asking Ambassador 
Powell, I understand that the Department disputed this finding. 
Would you like an opportunity to address this issue as well as 
what you are doing to encourage language training?
    Ms. Powell. Mr. Chairman, I would agree that the perception 
persists. I am hoping that as we finish our promotion cycle--we 
are almost done with it this month--that I will be able to come 
back to you with data that establishes a baseline for us to 
look at as to how many people who are in training got promoted.
    I think there are two things to be considered with this. 
Most Foreign Service officers who are doing language training 
understand that they are going to be better officers and be 
able to perform better as a result of that. That certainly is 
documented when they get to their assignment. It is part of the 
precepts of our promotion process of how well and effectively 
they use their language capabilities. I think our promotion 
panels take that precept very seriously as they look at it. But 
I cannot cite for you today statistics to back that up. That 
would be my perception in terms of the performance that is 
enhanced by people who have spent time in language training.
    Senator Akaka. Thank you, Ambassador. Senator Voinovich.
    Senator Voinovich. In my opening statement, I talked about 
having a strategic plan with milestones and metrics to respond 
to the recommendation of GAO. The GAO works for the Legislative 
Branch of the Federal Government. We ask them to go out and do 
reports and I would like to have in writing a response back 
from the Department in regard to the recommendations that they 
have, and if there are some that you feel that aren't relevant 
or are not correct, I would like to know that. But more 
important, the ones that you do agree on and what you intend to 
do about moving forward with them.
    I would also like to know to what extent are human capital 
needs included in the Department's ongoing quadrennial 
diplomacy and development review. One of the things we found 
out over the years is that in too many instances, human capital 
just wasn't even mentioned. Ambassador Powell.
    Ms. Powell. In our formal response to the GAO draft we 
agreed with the recommendations and have already started to 
work on the language designated one. We have started a working 
group to examine the issues that we need to plan strategically 
and, as I mentioned, we are obviously including this as a very 
important part of our Diplomacy 3.0. We will put the metrics 
into that and provide those in our more formal response as a 
follow-up to the GAO report and in our own planning.
    We have been examining the alternatives for looking 
particularly at the incentives, both for language and for 
hardship, which was documented in the GAO report. We have been 
using the Office of Personnel Management (OPM) survey and our 
own internal employee satisfaction surveys in alternating years 
as a measure of that. The conclusion that we have come to, I 
think, which was backed up by the GAO, is that those are not 
sufficiently detailed. We are looking at what impact the annual 
OPM survey is going to have on our own survey, the possibility 
that we may need to devote resources to a study of this in 
particular, defining in much greater detail what the incentives 
are and what seems to influence people most.
    Senator Voinovich. Thank you. As Senator Akaka and I 
support a permanent legislative remedy to address the locality 
pay gap for folks overseas, a byproduct of this increase in 
basic pay is an increase in the cost of existing incentives, 
such as hardship differentials, which are computed as a 
percentage of base pay. I know that Congress is committed to 
growing our diplomatic strength, but we need reassurance that 
our limited dollars produce positive gains. What is the cost 
impact of overseas locality pay to the State Department's 
budget? Is the State Department reconsidering its existing 
incentives? And when will the State Department complete its 
review of the effectiveness of increasing hardship and danger 
pay incentives?
    Ms. Powell. I would say two things. First of all, a very 
big thank you to all of those who supported the efforts to work 
with us on locality pay and all of those who have been involved 
in it.
    I have just come back from a 25 percent differential post 
when there was no locality pay for the employees under my 
supervision. They, in essence, got a 2 percent differential for 
serving in a 25 percent hardship post. This goes a long way in 
addressing that. They were all there as volunteers, no one was 
complaining, but it was obviously noted by people.
    We will be using the study, particularly using our look at 
our hardship statistics. I will take back your interest in 
having a review of what the locality pay difference will make 
on our budget. I don't have those figures with me.
    Senator Voinovich. I know I have talked to Senator Kerry 
about getting something permanent.
    The other thing that I would like as part of this overall 
response to GAO would be to capture in writing the costs and 
the budget implications of what it is that you want to do, so 
again we have some kind of idea of what commitments are we 
going to have to make in order--continued commitments to move 
forward with this new approach that we are making. I think, too 
often, what happens during the budget period is that people 
hold back on expressing themselves as to the money that they 
are going to need to do their work, and I think that it might 
be real good to look down the road a year, 2 years, 3 years, 
maybe 4 years to get it down on paper about what it is that you 
folks really think you are going to need to get the job done so 
that gets widely disseminated so everybody gets an 
understanding that if we are going to do the job that we have 
asked you to do, that we are going to come back with the money 
to pay for it.
    One of the things that came up in one of our last hearings 
was the issue of the float. Could you give us a little insight 
into that? My understanding is that you have got to have enough 
people so that you can give some time off to folks so that they 
can go out and get the training and upgrade their skills so 
that they feel like they are continuing to grow in their job. 
Could you share with us how that fits in with where you are in 
terms of the employees that you are trying to bring on?
    Ms. Powell. This is an incredibly important piece. We 
thought we were capturing that back with the Diplomatic 
Readiness Initiative under Secretary Powell, as mentioned. Many 
of those positions have been required to go to Afghanistan, 
Iraq, and Pakistan. We now believe that for fiscal years 2009 
and 2010, we need approximately 500 positions to be put into 
the float that will allow people to do language training. We 
had 300 in 2009 and there will be an additional 200 in 2010.
    Some of this may change as we look at specific positions in 
this review that we are undergoing right now as to which 
positions may need to be upgraded, what perhaps at the current 
level is a two-two level, perhaps needs to be a three-three 
level. With the additional resources, we will have the ability 
to do that. Some positions weren't designated previously, and 
we are looking at the ones where we have not been able to meet 
the necessary level. But we believe these are the ballpark 
numbers. They will be adjusted as we get the precise 
assignments.
    I would comment that in the course of my career, the shift 
away from the Romance languages where we did 20 weeks and you 
could be at a level where you could conduct visa interviews and 
perhaps 36 weeks got you to a very professional level, those 
positions, many of them still exist, but many more have been 
created in the harder languages, where you need a minimum of 44 
weeks and quite often 88 weeks to achieve minimum professional 
capabilities. And so the float will take into account that mix, 
as well, that these are much longer training periods than for 
the Romance languages.
    Senator Voinovich. Could I ask one more question, Senator 
Akaka----
    Senator Akaka. Go ahead.
    Senator Voinovich [continuing]. Following up on that. What 
effort is the State Department making to get out across the 
country the need for language proficiency to the universities 
so there is some kind of an incentive say, here are languages 
that we really need and if you don't have courses in those 
languages, you ought to think about it. This will prepare your 
folks that like to go to the private sector as well. We should 
give them some kind of incentive to set up departments, or in 
the alternative, where they have them, to go out and recruit 
some folks to do that.
    I know I am very much involved in the nuclear industry and 
we have been working for the last 7 years to get the 
universities to start to improve upon their engineering schools 
so that we have got the people that we are going to need as we 
increase the number of nuclear power plants in the country, and 
it is working, because if you get it, you have got a job. I 
think that is a big incentive.
    Ms. Powell. I would agree, and we are working at it 
actually from two angles using the same group of people. The 
State Department has a group of people that we call diplomats 
in residence, who are our main recruiters on college campuses, 
but they also work with the political science departments and 
the deans and others to identify those skills that are going to 
be important for people to be able to pass the Foreign Service 
Test.
    We have also used an enormous amount of the new media to 
reach a group of people that use Twitter and Facebook and the 
Web pages and the blogs to let them know that we have a program 
that has identified groups of languages--Arabic, Chinese, Indic 
languages, Iranian languages, Korean, Russian, Turkic 
languages, Urdu, Uzbek, and Japanese--and that if you come in 
with a verifiable ability to speak those languages, you get a 
plus-up on your score in the oral examination. This is a huge 
incentive. I think that people who want to join the Foreign 
Service are going to be looking at universities where they can 
get that training.
    We are also looking at that pool of people that allow us to 
bring people in that we don't have to train for these long 
periods of time if they have already got a basic understanding. 
We have also required that they serve one tour as junior 
officers and then a subsequent tour in one of the places where 
they can use that particular language.
    Senator Voinovich. Great. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    According to one of the GAO reports being discussed today, 
Foreign Service Officers interviewed said that instructors at 
the Foreign Service Institute (FSI) were not well equipped for 
training beyond the general professional proficiency level. 
Additionally, my staff reported that Foreign Service Officers 
they interviewed at overseas posts were concerned about not 
having the opportunities to continue language training while 
they were at post and that their training at FSI did not fully 
prepare them for their job.
    Do you have recommendations for how the State Department 
could improve its foreign language training programs? Mr. Ford.
    Mr. Ford. Yes. There are a couple of issues here that we 
think would bear some further examination by the Department. 
With regard to the training, the issue is whether or not--when 
we conducted interviews overseas, a lot of the officers there 
felt that they would like to get additional training but that 
they were--in many cases, their duties took them away from the 
opportunities to get training. Some of them on their own dime 
would go out and hire local folks there to learn the language, 
but in many cases, they indicated that the post didn't have 
sort of a training program that they could use to further their 
skill from what they had learned at FSI. So that was one issue.
    A second issue had to do with the proficiency levels that 
officers felt they needed to fulfill their responsibilities at 
the post, and several of them felt that the level of their 
proficiency that they had obtained from FSI was not sufficient 
for them to carry out their job as best as they could. For 
example, a public affairs officer in one of the posts we met 
with indicated they would like to have a proficiency level up 
to a four, which is just below fluent, in order to be able to 
effectively communicate with local government officials and 
local government people that they were trying to influence 
through our public diplomacy mechanisms, that they don't have 
that level of training at FSI in general.
    So we didn't recommend in our report that the State 
Department specifically enhance its training overseas, but I 
can say based on the anecdotal information we obtained from a 
number of officers overseas, it is something they should look 
into in our view. We also think they ought to look into the 
whole question of proficiency levels for their officers 
overseas because we had a lot of feedback from officers that 
they didn't think that the proficiency levels they had were 
adequate for them to really effectively carry out their job.
    Senator Akaka. Do you wish to comment?
    Ms. Powell. Mr. Chairman, just a couple of comments. I 
think this is where we find these trade-offs that we have been 
forced to make over the past few years, that all of us, I 
think, who have studied hard languages or any language would 
like to have a higher level of proficiency. We wish we had had 
more time. But we also have to recognize at the same time that 
we have to fill these positions and we have to get the work 
done. So it is a constant balancing act.
    I am not familiar with all of the posts that the GAO teams 
went to. It is my hope that most of them had post language 
programs. We certainly encourage every embassy where English is 
not spoken to have a post language program in which they can 
enhance their skills. Those who didn't have training before 
they went to post can get the basics. And certainly, again, you 
are trading off because you have got a full-time job and you 
are trying to squeeze in an hour of language a day or several 
times a week.
    The Foreign Service Institute has really taken up the 
technical challenge over the past few years and greatly 
enhanced what it can offer online now. This is to our employees 
and to their eligible family members, and this has been a big 
benefit for particularly getting a jump on an assignment. If 
you know that you are going to Peshawar on your next 
assignment, you can begin to study Urdu on your own at your 
previous post or you can brush up on it if you had it earlier. 
These are available to all employees.
    As I noted, part of the Diplomacy 3.0 exercise that we are 
engaged in right now is to ask each of our regional bureaus to 
look at their designated language positions, identify those 
where a higher proficiency might be warranted now that we have 
the potential for providing that training without taking the 
position out of the job market. So I think we will see some of 
them upgraded as a result of the float being created.
    Senator Akaka. Ambassador, you testified that the State 
Department is seeking additional incentives and allowances to 
help fill hardship posts. Please elaborate on what incentives 
you need, including whether Congressional action is needed to 
help you do that.
    Ms. Powell. The reference was to some of the other things 
other than just the hardship allowance. We found, for example, 
in filling our positions in Afghanistan and Iraq that many 
people have been attracted to these because we have linked that 
assignment to a follow-on assignment. They know when they bid 
on this job that they are then going to go on to a designated 
position. That has been important. We are finding that the 
student loan program for some of our younger officers, where if 
they serve at a 20 percent or higher differential post, the 
repayment of some of their student loans is a major incentive.
    The other thing that I was referring to was that I think 
many of these are intangible. We find still a huge number of 
people who are doing this out of a sense of patriotism and 
duty, a real feeling in hardship posts that you are making a 
difference and people very much appreciate that. I, for one, 
like the sense of community that comes at some of these smaller 
posts and I, in my career, sought those kinds of posts.
    Many of them do it because they have additional 
responsibilities, and I recognize there is a trade-off here. 
This is the experience factor. But if you want to stretch 
yourself and have a greater sense of responsibility, you can do 
it at the hardship posts in many cases. For many of them, it is 
pursuing an area of expertise. In my own case, South Asia. All 
of our South Asian posts are hardship posts, so it required me 
to serve at those posts.
    I think as we look at the incentives, we are going to have 
to factor in these things that are also spurring people to take 
these assignments. They look to the hardship pay in many cases 
as a way of offsetting--or the danger pay--those instances 
where they have been ill as a result of living in a very 
polluted environment. They have wondered if the motorcycle 
coming up along the motorcade is going to be the one with the 
bomb in it or not. All of those things are seen as being 
compensated for by our differential payments, but may not have 
been the incentive for many people.
    Senator Akaka. Senator Voinovich, any further questions?
    Senator Voinovich. Yes. Ambassador Powell, GAO found that 
the State Department's designated language proficiency 
requirements do not necessarily reflect the actual language 
needs of its overseas posts. They reported officers who met the 
requirement for their position frequently stated their 
proficiency level is not always enough for them to do their 
jobs. They have described some of the folks saying, it is 
enough to get by. Frankly, I ask the same question wherever I 
go and that is what I get. I am not proficient, but I have 
enough to get by.
    Has the Department really looked at this? In many 
instances, when I meet people from other countries, I find they 
are very proficient in English. These countries are very 
fortunate in that they start kids in kindergarten, first grade, 
in English language instruction. It seems to me as you look at 
the number of overseas posts there may be certain areas where 
States will need more skilled people where English proficiency 
is low.
    And then it seems to me that in those areas with higher 
rates of English proficiency that you would have fewer language 
speakers, hopefully, one position would be the ambassador or 
the consul general because I think so often you miss the 
nuances of things if you don't have somebody that really has 
the language skills. Have you done that kind of an analysis?
    Ms. Powell. There is an annual review that begins at post 
level. I have been on the other end of it and looking at which 
positions in my missions I felt needed to be language 
designated. I have always had a consultative process with those 
officers who had studied, whether they had enough, whether they 
thought that they had wasted their time and the government's 
money in acquiring the language. Quite often, there is a give 
and take on this. But it is an annual review. It is then 
brought back to the Department. Each of the regional bureaus 
responsible for the missions abroad presents HR with a 
consolidated list.
    As I mentioned, we are trying to do a much deeper dig this 
year, asking the posts and the bureaus to really look at this 
and see if they need to expand the number of positions, if they 
need to up the level.
    At the same time, we are also taking a look at a new 
concept in language as to whether or not we need to have the 
same reading and speaking skills at the same level. I know in 
my own case, if I had spent a little more time learning to 
speak Urdu, I think I would have been more effective than all 
of the time I spent learning to read it. I didn't really need 
the reading level unless I was going to get to the four or five 
level. I had people on my staff who could help me with the 
reading. The speaking, I spent an incredible amount of time 
learning to read at the three level that might have been better 
used to get me to the four level on the speaking side.
    We are taking a look at that concept. It is a new one. We 
would need to look at the compensation and how you determine 
which positions--in some of our consular positions, it is very 
important that you be able to read because you have got to look 
at the documents that people bring. But for a political 
officer, it may not be quite as important to have the reading 
skills that are very difficult to acquire. So that is another 
area that we are looking at right now. It would be part of our 
strategic review as recommended by the GAO. It would include 
that as part of it.
    Senator Voinovich. I call that working harder and smarter 
and doing more with less.
    This is just an interest of mine. I would think from a 
public diplomacy point of view that having people that are 
proficient in the language of the country in which they are 
located is a very positive thing, in addition to being able to 
communicate better, but just in terms of flattering 
individuals, that you paid enough attention to their country 
that you have someone that could speak the language.
    I studied Russian for 3 years in undergraduate school and I 
still remember a little bit of it. It is amazing how just a few 
words make a big difference with some folks.
    But would you care to comment on that aspect of it in terms 
of, people being a little bit more receptive because you think 
enough of them to have someone that can speak the language?
    And the other issue that I would like to raise, and 
probably you won't respond to it, but I have always been 
concerned that we send these political ambassadors all over the 
world and in most cases none of them speak the language of the 
country. I thought it might be a good idea that maybe you would 
put a qualification out there, if anybody wants to be a 
political ambassador, that they had better know the language of 
the country.
    I will never forget, we had someone in Ohio that could 
speak--what is it in the Netherlands, Dutch? Yes. A really good 
guy, and somebody else got the job and he was really offended. 
He could have made a good ambassador. If you would care to 
comment on that and the other question.
    Ms. Powell. Let me take the first one first. Certainly, the 
ability to--even if what we call a courtesy level, of being 
able to say the greetings, to say thank you, will open an 
incredible number of doors and ears to you. Obviously, if you 
can do it at a more senior and professional level--I just 
watched a former Peace Corps volunteer who came and worked with 
us in Nepal who was able to conduct radio interviews, explain 
complex visa regulations in Nepali. It made all the difference 
in the world. But even my ability just to say a few sentences, 
to be able to talk to people.
    I think we are seeing a world in which we are going in two 
directions. The number of English speakers is expanding 
enormously. The ability of people around the world to use the 
Web, to use CNN, and the English language media has expanded 
greatly. At the same time, we have a desire not to be just 
communicating with those people who only have English language 
skills and the desire to reach out to the population that may 
not be comfortable in English or have access to a television 
that has CNN on it. So it is a constant balancing act of using 
our resources appropriately to reach those audiences that don't 
have English, but also using those technical means where you 
can use English and we don't have to train someone in very 
complicated foreign languages.
    I would say on the presidential appointees, they are 
presidential appointees. My responsibility is to help get them 
ready. We certainly, to the extent possible, offer them 
language training before they go to post. Obviously, most of 
them don't have the length of time. But I think--I get a weekly 
update of which ones are in language training. Many of them 
take advantage of it while they are waiting for their Senate 
confirmation process, their security papers to clear, and I 
think have those courtesy levels by the time they get to post 
if they at all can do it.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I want to thank our panelists for your responses. Your 
responses have been valuable to us this afternoon. I want to 
say that we want to try to address this as quickly as we can.
    So again, thank you so much for being here. We may have 
some additional questions for you and some comments from other 
Members that we will include in the record. Thank you.
    I would ask our second panel to please come forward.
    [Pause.]
    I want to welcome the second panel of witnesses. They are 
Ronald E. Neumann, President of the American Academy of 
Diplomacy, and Susan Johnson, President of the American Foreign 
Service Association.
    As it is the custom of the Subcommittee to swear in all 
witnesses, will you please rise and raise your right hand?
    Do you swear that the testimony you are about to give the 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Neumann. I do.
    Ms. Johnson. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses responded in the affirmative.
    Before we start, I want you to know that your full written 
statements will be made a part of the record and to remind you 
to limit your oral remarks to 5 minutes.
    So, Ambassador Neumann, will you please proceed with your 
statement?

TESTIMONY OF RONALD E. NEUMANN,\1\ PRESIDENT, AMERICAN ACADEMY 
                          OF DIPLOMACY

    Mr. Neumann. Thank you, Mr. Chairman and Senator Voinovich. 
I have submitted the testimony of my colleague, Ambassador Tom 
Boyatt, and he and I agreed that I speak for us both.
---------------------------------------------------------------------------
    \1\ The prepared statement by Hon. Thomas D. Boyatt submitted by 
Mr. Neumann appears in the Appendix on page 50.
---------------------------------------------------------------------------
    Our report of last October, ``A Foreign Affairs Budget for 
the Future,'' clarified the dire shortages in human and 
financial resources faced by the foreign affairs agencies. My 
colleagues and I would like to thank you, Senator Akaka and 
Senator Voinovich, for your interest, support, and direct 
participation in carrying out that study. We are likewise 
grateful to Joel Spangenberg and Jennifer Hemingway for their 
advice and participation in that.
    Progress has been made in the last 2 years by both 
Democrats and Republicans in fixing the problems we documented. 
Your support and that of the Subcommittee, has been critical to 
this process and will be vital in the months ahead.
    I now turn to questions you asked us. First, you asked 
about experience gaps. We believe elimination of staffing gaps 
and the filling of vacancies is the first priority in using 
increased personnel, but cannot alone solve the experience 
gaps. These are more complicated. We know the Director General 
and her staff are working on how to bridge the gap between 
recruitment at the bottom and building the necessary levels of 
expertise. We hope the Congress will support creative 
solutions, such as utilizing retired officers. I recognize that 
there are concerns about allowing retired officers to double-
dip, and that is why I suggest that flexibility could be time 
limited to focus specifically on immediate needs until 
experience can be expanded to meet numbers in the professional 
service.
    In particular, I want to note a specific idea that 
Ambassador Boyatt and I expressly endorse but neglected to 
include in our prepared testimony, and that is the expansion of 
the definition of personnel under Section 1603(5) of the 
Reconstruction and Stabilization Civilian Management Act of 
2008, which is--I won't bother with the full public title. As 
currently legislated, only civil service and Foreign Service 
can be members of the Civilian Response Corps (CRC). This 
limitation prevents our partner agencies, USAID in particular, 
from recruiting personnel service contractors (PSCs) and 
Foreign Service nationals as members of the stand-by component.
    Both PSCs and FSNs have extensive experience in 
stabilization crises that would be of tremendous value to the 
CRC. By expanding 1603 to add FSNs and PSCs to the definition, 
we will be able to realize a more robust stand-by component.
    You have my full testimony, but in closing, let me focus 
particularly on the Academy's recommendations of language 
positions which occupied so much of the first panel and your 
discussion. The situation is awful, as the GAO is independently 
documenting, and it is going to take time to repair. We 
strongly need new positions. We have for years faced the choice 
of losing capacity in current operations to train or maintain 
current operations and losing future capacity.
    That is why we have recommended a training float and why 
the progress made this year must be sustained in the future. I 
think as we look at this over time, we are going to have to go 
beyond language skills, as well, and look at the broader gamut 
of professional training, which our military colleagues do so 
well, and we, never having had the opportunity to do any, 
don't.
    But on language skills, Mr. Chairman and Senator Voinovich, 
the skills and capacity we discuss are not simply esoteric 
demands of the striped-pants set. They are basic to our ability 
to serve the Nation and sometimes to survival itself. 
Ambassador Boyatt recounted in his prepared testimony how 
language was critical to his mission and keeping him alive in 
Cyprus. I would like to end with an anecdote from Iraq.
    I had probably the last conversation with the Iraqi sheiks 
in Fallujah before the very bloody second battle of that name. 
I had the Marine Division Commander's interpreter, the best we 
had, and I stopped him three times because he was leaving out a 
critical point that he just didn't understand. Fortunately, my 
Arabic was sufficient to note the lack. I wonder how many 
people we have killed because we think we have told them 
something that they, in fact, have never heard.
    We have to have the language skills to fill this gap, and 
this is going to take time.
    Mr. Chairman and Senator Voinovich, thank you both very 
much for the opportunity to record my views on these critical 
matters you are discussing today. Your support over the last 3 
years as the Foreign Affairs Council and the Academy have 
worked to overcome the problems of an understaffed and 
dangerously weakened diplomatic capacity have been enormously 
appreciated and served this Nation very well and I will be 
pleased to take your questions.
    Senator Akaka. Thank you very much, Ambassador Neumann.
    And now, Susan Johnson, will you please proceed with your 
statement?

 TESTIMONY OF SUSAN R. JOHNSON,\1\ PRESIDENT, AMERICAN FOREIGN 
                      SERVICE ASSOCIATION

    Ms. Johnson. Thank you very much, Mr. Chairman and Ranking 
Member Voinovich. On behalf of the American Foreign Service 
Association (AFSA) and the employees of all of our member 
agencies, I both welcome and thank you for this opportunity to 
speak before this Subcommittee on the subject of diplomatic 
readiness and Foreign Service staffing and language challenges. 
We deeply appreciate your interest in these issues. And on 
behalf of our members and all affected, I would like to thank 
you again for your support for ending the overseas 
comparability pay inequity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Johnson appears in the Appendix 
on page 55.
---------------------------------------------------------------------------
    Diplomatic readiness goes to the very heart of building the 
strong professional Foreign Service the United States needs to 
play an active role and effective role in the 21st Century. 
There is a pressing need for clearer recognition that diplomacy 
is an indispensable instrument of national security. As 
Secretary Clinton has often said, if we don't invest in 
diplomacy and development, we will end up paying a lot more for 
conflicts and their consequences.
    AFSA welcomed and strongly supports the recommendations in 
the foreign affairs budget for the future. AFSA has long held 
that the Foreign Service is underfunded and lacks the people 
and resources to perform its mission effectively. The serious 
staffing gaps that we face today reflect the consequences of 
neglect, on the one hand, and expanded mission on the other. 
The tremendous increase in the scope of the Service's mission 
caused by the critical staffing demands in Iraq and Afghanistan 
has brought the situation to a head. Hiring at the State 
Department and USAID is finally on the upswing, but this 
momentum will need to be sustained and steps taken to ensure 
that this sudden and massive intake of new personnel is well 
managed.
    I would like to underscore that AFSA sees a strong case for 
expanding our Foreign Commercial and Agricultural Services, as 
well. Their critical functions are often overlooked and should 
not be.
    AFSA strongly agrees with the recommendations in the two 
Government Accountability Office reports that this hearing is 
focused on. Staffing shortages are at the root of the problems 
of unfilled positions and experience gaps and are a strong 
contributing factor to the language proficiency deficiencies 
the reports identify. These problems combine to undermine our 
diplomatic readiness and effectiveness.
    We believe that training in critical need and other hard 
languages should be more closely linked to assignment patterns 
and career planning. Language proficiencies should enhance, 
rather than undermine, prospects for promotion. We also urge 
that basic language training be provided to all Foreign Service 
personnel assigned overseas, including specialists, to enable 
them to function more effectively, as well, even in non-
language designated positions.
    The Department of State has made good faith efforts over 
the years to identify the right language designated positions 
and the right levels, but AFSA believes that a comprehensive 
review of language designated positions is long overdue. It 
should be undertaken now in light of new global realities and 
our strategic priorities. It is important to get this right.
    AFSA, therefore, strongly supports the GAO recommendations 
for a full review of the ratings system and identification of 
language designated positions. We also endorse the GAO 
recommendations on staffing and experience gaps at hardship 
posts. We consider the recommendation that the Department 
develop and implement a plan to evaluate incentives for 
hardship post assignments to be particularly important, and 
AFSA would like to participate in some way in an effort to 
evaluate existing incentives and to identify others.
    The results of AFSA's last electronic opinion poll of its 
members, published in January 2008, suggests that extra pay and 
benefits are certainly a factor contributing to willingness to 
serve in Iraq and Afghanistan, but so are patriotism and duty, 
career enhancement, adventure and challenge, and a host of 
other factors that Director General Powell, Ambassador Powell, 
identified and spoke to.
    It is worth noting that the poll data revealed a widespread 
perception that the Foreign Service is less and less family 
friendly, suggesting that incentives to address this deficiency 
would be well received. And I have in mind here looking again 
to the military model of Military OneSource, the support given 
to family members here that are our colleagues in the military 
enjoy. Often, that is a concern when people are considering 
assignments to unaccompanied posts for one or more years.
    The quality and effectiveness of U.S. diplomacy will surely 
be impaired if language and staffing gaps are not addressed 
seriously and persistently, and AFSA welcomes your interest and 
supports all efforts to do so.
    Thank you for the opportunity to testify and for your 
support. We appreciate very much your leadership on these 
issues, and I will be happy to answer any questions you may 
have. Thank you.
    Senator Akaka. Thank you very much, Ms. Johnson.
    As you know, I asked Ambassador Powell how the State 
Department plans to allocate its new FSOs. Could you please 
respond to the State Department's plans for allocating its new 
FSOs?
    Mr. Neumann. Go ahead.
    Ms. Johnson. Well, I would like very much to be able to 
respond to that in more detail. I do not yet know a lot about 
the State Department's plans and hope that they will become 
more transparent or have more detail to them. Right now, I know 
little more than we heard the Director General say today.
    We are, as the American Academy of Diplomacy (AAD) and as 
Ambassador Neumann mentioned in his testimony now, we are 
particularly concerned with the experience gap and what kind of 
a strategy or what plans the Department may have for addressing 
that.
    Senator Akaka. Ambassador Neumann.
    Mr. Neumann. We also have a bit of a knowledge gap here, 
but as we indicated in Ambassador Boyatt's written testimony, 
we agree that the first priority is to plug the immediate gaps. 
That is a hemorrhage that has to be dealt with.
    We have recommended a balanced approach to proceeding, as 
much as one can, with staffing positions, or with the new 
positions in training in long-term training in creation of new 
positions. There are several different needs. Obviously, the 
Response Corps is another piece of this and we have got to be 
able to move simultaneously on all of them.
    To that end, we have recommended, and this seems to be very 
much in consonance with your own thinking, that the State 
Department prepare a plan for the out years as to how the 
additional positions that are going to come on board, funding 
permitting and future requests being made, how those positions 
would be worked in so that one can see what the picture over 
several years would look like and then be able both to judge 
how much progress you are making on individual pieces of that, 
but at the same time, that would act, in our view, as a way of 
validating the total requirement for the additional positions.
    Personally, I think many of my colleagues are concerned 
that next year or the year after, as deficit shock really 
strikes in the Congress, that it may be much more difficult 
than it has been in this year and last year to maintain the 
pace and to finish the process of rebuilding the Department's 
and AID's personnel. If we don't do that, then I believe what 
will happen will be a repeat of what we have seen before. We 
will not correct institutional problems. We will start pulling 
apart whatever corrections we have made in order to fill 
individual gaps, and so we will have a better situation, but 
not a repaired one.
    Senator Akaka. Thank you. The vacancies and experience gaps 
at hardship posts need immediate attention to ensure that 
diplomacy can be carried out effectively. What recommendations 
would you make to the State Department in immediately 
addressing these challenges? Ambassador Neumann.
    Mr. Neumann. I will have a first crack, but Ms. Johnson is 
part of the active service and I defer to them. But many of the 
gaps are not a function of incentives or steps but of the 
simple lack of personnel. And so some of those probably can't 
be filled immediately, no matter what your plan is. But that 
takes me back to the question of utilizing retired officers, 
when actually employees (WAEs), and the like, because many of 
the gaps are not simply at the junior positions or they are 
unrealistically junior because positions have been down-rated 
in order to try to fill them, and then even so, not filled. So 
there is a knowledge gap that multiplies the effect of the 
staffing gap.
    We are very handicapped in the use of retired officers for 
reasons which I understand. People are drawing a pension and 
there is a question of drawing two checks. But what we are 
getting now is a double-negative. On the one hand, we lack the 
ability to use the experience. On the other hand, in critical 
places, we pay contractors a substantial overhead in order to 
pay the people the money that we don't want to pay them 
ourselves so that we can still hire them to use them in some 
way. So the taxpayer is not really benefitting, but the Nation 
is hurting.
    I think we need to examine seriously the limitations on how 
we can use retired officers. I also believe personally--not 
speaking for the Academy because we haven't looked at it--that 
the State Department needs to complete something which has been 
discussed in the past, and that is a global register for WAEs, 
for retired officers willing to serve, rather than the Bureau-
maintained rosters now, which simply don't give you the most 
efficient handle on grabbing people.
    Senator Akaka. Ms. Johnson.
    Ms. Johnson. Well, I would like to thank Ambassador 
Neumann, because he has answered a lot of the things and made a 
point that I certainly would like to strongly endorse. We think 
that this is a way that should be seriously considered in terms 
of meeting the mid-level staffing gaps.
    As Ambassador Neumann said, we simply do not have the mid-
level officers, and that is partly because of the consequences 
of the under-attrition level hiring in the mid-1990s. There is 
no easy way out except perhaps to look at the solution that he 
just mentioned, which is to bring back retirees to serve in 
those positions until this new influx of entry-level folk have 
gotten the required experience.
    And I would like to say with regard to your earlier 
question, one concern that we are already hearing from the new 
entrants is they are concerned about cutbacks in training, and 
the initial training that they get at FSI, which is being cut 
back from 7 weeks to 5 weeks, and they thought 7 weeks was a 
bare minimum. So I think this is a concern that the brand new 
entry-level personnel is already expressing to us.
    Senator Akaka. Thank you. Ms. Johnson, you stated your 
concern that long-term language training could disadvantage 
FSOs from potential promotions. Could you please elaborate on 
this problem and how AFSA might be able to work with the State 
Department to address this issue?
    Ms. Johnson. Thank you, Mr. Chairman. Yes, I think AFSA 
members and I have certainly heard the same sort of feedback 
that the GAO officials heard, that Ambassador Powell had also 
mentioned that she had heard. There is a widespread perception 
that particularly language training for hard languages that 
takes a year or two is not an advantage for promotion and in 
some cases a disadvantage.
    Now, unfortunately, I don't think we have any collected 
statistics or numbers that would verify whether that perception 
is correct or not, and I think it could be relatively easily 
done, to take a look at promotion rates over the threshold or 
ambassadorial nominations or any other thing and take a look at 
what kind of training they had and did that affect their 
promotion levels, and what has happened to people who have 
invested in hard language training. But that perception is out 
there and we can confirm that from what our members tell us.
    Senator Akaka. Another part to that question was how can 
AFSA work with the State Department in addressing this problem?
    Ms. Johnson. We would be happy to work with the Department 
on a study and analyzing and sort of collecting the facts. And 
once we know the facts, I think we would be better positioned 
to come up with recommendations on effective solutions.
    Senator Akaka. Thank you. Senator Voinovich.
    Senator Voinovich. Thank you very much for all of your help 
in this area. Ambassador Neumann, thank you for your 
leadership. It must be nice to know that after you finished up 
your report somebody read it and is taking some action upon it.
    You had an opportunity to hear some of the questions of the 
previous panel. I wonder if you both would be willing to, in 
the event we get this plan that I have asked for in terms of 
how they intend to implement the recommendations of GAO, and 
many of them are contained in the recommendation of the 
American Academy of Diplomacy, to kind of look that over and 
give us your two cents on what you think about it.
    Mr. Neumann. The short answer, of course, is yes. I just 
wanted to tell you, as well, that we feel a sort of godfatherly 
responsibility for what the State Department is going to do 
with the new positions they have got. Obviously, we are not in 
any legal or professional way responsible.
    But this has led us in the Academy to think that it may be 
time for some serious additional reflection on what it means to 
be professional in the 21st Century. We have had a model, which 
is sort of a British 19th Century model, that you are going to 
get an educated person, send them forth, and anything they 
don't already know, they will figure out. It is not adequate, I 
think, for the 21st Century, and it isn't just about language 
training.
    Our military colleagues, I think, have gone well beyond us 
in developing the concept of professional training. I think we, 
in the diplomatic service, need to be looking at what kinds of 
professional development one needs aside from work in the 
career. Some of that, obviously, the core of that is language, 
but it is more than language. It is how do you deal with the 
needs of the 21st Century.
    I think this is going to be a lot easier to pontificate 
about than it will be to come up with specific recommendations, 
and we are only getting ourselves together now. We have not 
really had a chance to begin talking to the Department and see 
if they would welcome such a study, but we hope that we might 
be a bit of a force multiplier, since I know they are pretty 
beleaguered in trying to cope with putting out fires as well as 
looking at the long term and the future.
    So we would very much like to look at their response and 
we, resources permitting, would hope that we might contribute 
our own views, as well, in a larger context.
    Ms. Johnson. The answer, of course, for AFSA is also yes. 
We would be pleased to do what we can to take a look at that 
and give our two cents.
    Senator Voinovich. How long is your term in office?
    Ms. Johnson. Two years.
    Senator Voinovich. That is good.
    Ms. Johnson. I hope that is long enough to at least get 
started and see some results.
    Senator Voinovich. I am out of here at the end of next 
year, so I am trying to get as much stuff done as possible that 
you can put in writing and set your milestones and metrics so 
you have got something that you can look at, and I think once 
it is signed off, then you can continue to market it. What I am 
always worried about is when we get started around here, we get 
some good ideas, and then interest runs out and it doesn't 
happen.
    I have had lots of talks with General Jones as far back as 
Brussels 2 or 3 years ago about his ideas in terms of smart 
power and I think that is the way we need to go. If we are 
going to get that done, we are just going to have to follow 
through on these recommendations that we have got that have 
been made in regard to the State Department.
    The issue of annuitants, we got that language passed by the 
Senate as part of the FY2010 National Defense Authorization Act 
and we are going to do some work and get it accepted by the 
House. Ms. Johnson, you could help a great deal on that, your 
organization, to kind of lobby them and say that we don't 
object to that.
    It is interesting that we have been able to get that 
language put in. I know, again, I have been working on the 
Nuclear Regulatory Commission for 10 years and that language 
has really helped a great deal in terms of their problems, 
because they not only have to replace the people who are 
retiring, but they have to bring on new people in order to take 
on the new responsibilities of these combined license 
applications that are coming in. Being able to bring folks back 
has been terrific because you are talking about training and 
you need the people to train these folks.
    So I am hoping that we can get that done. Would you like to 
comment on the importance of that?
    Ms. Johnson. Well, thank you. Those are all very important 
things. AFSA will be happy to lobby with whoever we can on the 
House on this issue.
    But I wanted to just step back and say that I think we have 
all agreed that the United States is facing a particular new 
set of challenges and we have to take a new look at our 
institutions and what are the requirements for them to be 
effective and for the people who staff them. What kind of 
training and professional education do they need?
    AFSA is both the professional association of the Foreign 
Service and its bargaining unit and union, so we have a dual 
role and responsibility and we want to strengthen both. And we 
think that it is important right now that AFSA and the 
management of the State Department forge kind of a constructive 
working relationship where we are working together to get some 
of these things done. They are not easy and they need unity, 
and so we are looking to sort of recalibrate a little bit the 
AFSA relationship so that we can be more involved in these 
studies and processes as they go along, sort of not necessarily 
only afterward, which takes a longer time.
    So we are looking at a number of alliances. We certainly 
have a close working relationship with the Academy and we want 
to maybe be a bridge and bring in some of our fellow 
associations, I guess, who share common goals to work with 
management as they undertake some of these studies, be able to 
give our input as we are doing it, not afterwards and reacting 
to it.
    Senator Voinovich. That is smart. I think the fact that the 
Academy is made up of folks who have had experience within the 
State Department, has been very worthwhile. But the key to it 
is to try and make sure that your members who are actually out 
there have input into some of the changes that are made. I have 
observed over the years as mayor, governor, and here, that so 
often, the people that really know what needs to be done are 
never consulted. Somebody comes in and says, this is what we 
think needs to be done, and then--you have a better idea, I 
think, of what needs to be done than some new folks that are 
coming on board.
    So if there is anything I can do to move that along, and I 
am sure Senator Akaka feels the same way, I think it is 
absolutely essential. How often do you meet with these folks?
    Ms. Johnson. Well, we have a particular challenge because 
our folks are spread all over the world. I would say 85 percent 
of active duty personnel are now members of AFSA, which is 
higher than it was, and we are looking at ways right now to 
improve communications with them and to be able to mobilize 
them on issues that they are concerned about or knowledgeable 
about, and we are trying to do that through a number of ways.
    One of them is through regular and more frequent surveys 
that we can send to them directly through something called AFSA 
Net, directly, electronically to their in-box. So we had annual 
surveys, but now we are looking to supplement those with some 
specific ones on specific issues.
    We are looking at a number of others ways. I won't take 
your time right now to go into them. But certainly we are 
interested in improving communication with our members and 
within the Department and looking at ways to use new 
technologies to do that more effectively.
    Senator Voinovich. Well, we would like to move ahead on a 
permanent overseas locality pay fix. I have talked to Senator 
Kerry about it. But you know and I know that most of us are so 
darn busy that unless somebody kind of puts it right in front 
of our nose, we don't pay attention to it. I think it would be 
really great if you put together a little program where you 
would be contacting the members of the Foreign Relations 
Committee and others here to talk about how much good this 
change has made in terms of your folks out there in the field 
and try to work on that issue and make sure it gets done so 
that it is not just a one-shot deal and then you build them up 
and then, whoosh, goodbye.
    The other thing is this training thing that you talked 
about, you are saying you think that they are being 
shortchanged. Again, I think that is really very important that 
training get done. Again, you get to the issue of you have got 
to have the trainers. And if you were able to bring back some 
folks on a temporary basis that would be able to come in and do 
that, it would, I think, make a big difference.
    Ms. Johnson. Thank you. We are concerned with that. As a 
matter of fact, I have just requested a number of meetings with 
some of the very people that you have mentioned, both to 
introduce myself and to talk to them about this issue.
    I would like to say something on language training, too. 
Our members have given us quite a bit of feedback. I went out 
to the board members in preparation for this hearing to ask 
them about some of the issues you had raised, and we have 24 
people on the board, our governing board of AFSA, and they are 
in touch with all the different constituencies. I was surprised 
to see how many of them came back passing on expressions of 
concern about quality and quantity of language training at FSI, 
particularly in Arabic. That seems to be an area where more 
focus is needed and we would like to follow up with the 
Department on that.
    Senator Voinovich. Thank you. Thanks, Mr. Chairman.
    Mr. Neumann. Could I add one word on Arabic training, sir, 
because that is a language with which I have done battle for 
many years. I think the language won, not me. But it has some 
particularities that both the Department and, I think, others 
will have to look at. There is a need for a level of 
grammatical comprehension to get to top levels. The people I 
have known over the years who were really good Arabic speakers, 
like Robert Ford, our current, or past Ambassador to Algeria 
who is now back in Baghdad for his fourth year, had university 
language training, and the best people I know in it have gone 
to university training.
    We have a structural problem that I don't know if FSI can 
fix, which is with a lot of languages, you get to a certain 
point and then you go work in the country and your language 
gets better. However, in a lot of the Arab world now, elites 
speak very good English. If your Arabic isn't fairly good, it 
actually deteriorates at post because so many of the elites 
speak good English. They would rather speak Arabic with you if 
your Arabic is really good, but they don't have the patience if 
you are still kind of blundering your way along, as many of us 
are.
    So the result is we have to go beyond FSI, I think, when we 
look at wanting to produce top-quality Arabists. It may be true 
of other languages, but I know it is true there, that the basic 
theory of our training isn't meeting the reality in the world.
    The other thing is, Senator Voinovich, you were talking 
about whether you need people--how many people do you need to 
speak the language. The only thing I would call to your 
attention is you only have the time to learn languages well 
when you are a younger officer, not because necessarily--I hope 
not because your brain is younger, but the more senior you are, 
the more pressed you become, the more you are a short commodity 
for the Department that needs to get you to post, the harder it 
is to pull you out to do refresher or expansion training, no 
matter how much the officer would want it.
    And you can play with a language. When I was a younger 
officer, I really enjoyed being out and being able to use it. 
When I was Ambassador to Afghanistan, I had to be extremely 
careful that I was clearly understood in anything I said, no 
matter what the context, and that I clearly understood what 
people were saying to me. And at that point, it is too serious 
to be using conversation as a language enhancement. I could do 
that with my language instructor, I could do it in social chit-
chat, but I couldn't afford to be doing it for substantive 
subjects as I could when I was a younger officer.
    So I think these things drive us to need to look at 
different levels of training and at pushing it out even where 
the immediate job might not have the same requirement because 
we can't get it later.
    Thank you for letting me make that personal intervention.
    Ms. Johnson. If I could say one thing, also, on language 
that a number of our members have raised, and that is in-
country training, in the country that you are going to be 
assigned to, to supplement the basis that you get at FSI. I 
think a lot of people have found as linguists that they get 
better results in shorter periods of time by being able to get 
a basis maybe at FSI and then spend 6 months or something in 
country not right at the embassy, but studying the language, 
perfecting it. Certainly, that has been my experience, that 
produces a better level of proficiency.
    Senator Voinovich. Send them in 6 months early or something 
like that and just put them into the bathtub and immerse them 
in language training.
    Ms. Johnson. No. They actually would go into a training, 
continued language training program in that country. There are 
different variations on that country to country, but no, they 
would be in a context. But it has multiple advantages because 
of not only the language skills. They make a lot of contacts. 
They develop a lot of knowledge about the country, so when they 
do come into their job, they are markedly more effective than 
they would have been had they come immediately into the job 
with a lower language level.
    Senator Voinovich. Thank you. Thanks, Senator Akaka.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I would like to follow up with Ambassador Neumann and what 
he mentioned about an officer not being as proficient in 
another language and the foreign person he is speaking with 
being proficient in English. Therefore, they might end up 
having a discussion in English instead.
    Due to the staffing shortage at Foreign Service, officers 
are being sent to post before completing their language 
training. Due to insufficient training, officers have used 
locally-employed staff as translators. What are the risks of an 
over-reliance on locally-employed staff to translate for 
Foreign Service officers?
    Mr. Neumann. I am just smiling because I am going to have 
to contain myself to a short answer here for a question I love.
    First is that in many countries, your locally-employed 
staff has no choice but to report to the local intelligence 
people. So you cut off a lot of information. When I first went 
to Iran--that was before the revolution, so you can tell how 
long ago that was--initially, I was a little lazy and I had 
French and I had an interpreter, and then the first Kurdish 
rebellion of 1974 got going. All the Kurdish areas of the 
Iranian side were in my consular district and I very quickly 
realized that I would get so much more working in Farsi, even 
bad Farsi, than having an Iranian translator in the room 
because the locals had no idea who the translator might report 
to besides me, but they were darn suspicious about it. And it 
was true. I mean, the amount of information I gathered--some of 
which I wasn't supposed to have access to, like our covert 
involvement--just ballooned even though I was struggling 
sometimes with the language.
    When you expand beyond our immediate local employees, at 
least some of whom do have very good language skills, then you 
get into another whole area of problem that we have seen in 
Iraq and Afghanistan, that I have watched repeatedly. We are 
using people, often Arab Americans or Afghan Americans, who 
have learned Arab or Farsi, or Pashto, as a kind of kitchen 
language at home. It is not an educated language, so they are 
not--they are either not educated in English at a university 
level or they are not educated in their own language, their 
native language, at that level.
    The result is they are fine for simple interaction, but 
when you start getting into more complicated conversations and 
concepts, they often don't actually have the educated 
vocabulary in one of the two languages, or sometimes in both, 
to really handle those concepts.
    So there are places to use interpreters. I know Ambassador 
Crocker, who has excellent Arabic, used an interpreter a great 
deal in Iraq. He used a non-Iraqi interpreter much of the time 
to get away from the issue of who the interpreter reported to, 
and he could check the interpreter because his Arabic is good. 
But he wasn't wholly dependent on the interpreter.
    When we start using them as a substitute for doing our own 
work, we are just hurting every way you can imagine. And again, 
I am sorry, that is kind of a long answer, but it is a really 
important question.
    Senator Akaka. Ambassador, the State Department has had to 
rely on short tours of one year to fill critical FSO positions 
in Iraq and Afghanistan. However, GAO identified significant 
language shortfalls for the FSOs who serve in these 
assignments. As a former Ambassador to Afghanistan, you 
probably have had to deal with these types of issues firsthand. 
In your view, how should the State Department ensure that it 
staffs these posts with FSOs who have the needed language 
training and experience?
    Mr. Neumann. Yes, I have been there, done that. We have 
never managed to do this. Neither we nor the military have ever 
done this well. We didn't do it well in Vietnam, where we 
recycled people to different jobs.
    We have to bridge between the fact that we cannot--I think 
we cannot get all the jobs filled at the requisite levels of 
knowledge and language and length of time and the fact that we 
must break out of this phenomenon of not 8 years' work in 
Afghanistan, but one year eight times.
    I think we have to begin by recognizing that certain jobs--
and some of this--a little bit, I think, may be being done in 
the State Department. I am not up to date. I know it is being 
done more in the military, recognizing that a certain number of 
jobs are going to require levels of both language and 
experience in the country--the two come together--which need 
longer periods of service.
    Once we accept that requirement and go through the process 
of designating jobs, I think there are a variety of creative 
solutions that can work in combination. People can come back 
for repeat tours. Some people can stay. Some jobs can be 2-year 
tours. Some people can agree that they will--you can have 
linked positions where you have a couple of people who spend, 
say, a 3-year tour swapping out with each other so that you 
bring back the expertise. You may be swapping them out on 6-
month bases, but over 3 years, you are getting the same two 
people in the same job.
    In fairness to the Department, it is extremely hard for a 
large institution running a complex personnel system to manage 
this kind of pre-industrial piecework assignment process, but I 
believe it is really essential to our Nation that we confront 
this, particularly in a war. It was a huge problem, and the 
amount I knew--I had more experience than most in the Foreign 
Service, and having first visited Afghanistan almost 40 years 
before I ended up there as Ambassador; but I knew a heck of a 
lot more by the second year than I did the first year. And I 
drew enormously on a very few people that had even more 
experience.
    So it is a critical, critical need and we need to look at 
it and not blink and put meeting it in the ``too hard'' box. We 
have got to do better.
    Senator Akaka. Thank you. Thank you very much. Senator 
Voinovich, do you have any further questions?
    Senator Voinovich. I have no questions. Thank you.
    Senator Akaka. Mr. Johnson, according to GAO, several State 
Department human resources officials and Foreign Service 
Officers expressed their view that the State Department's 
designated language proficiency requirements may not reflect 
the actual language needs of the posts. For example, officers 
learning Arabic may need an advanced professional level instead 
of the required general professional level to perform their 
jobs. Have your members expressed this same concern, and what 
do you recommend the Department do to make sure language 
training adequately prepares FSOs for their duties?
    Ms. Johnson. Mr. Chairman, we have heard from some members 
on this issue, but we haven't gone out recently in a more 
comprehensive way, and perhaps this is something we want to 
make sure we address in our surveys.
    Generally speaking, my own experience has been that the 
three-three level, or even the three-plus-three-plus level, is 
not sufficient to be able to do your job at some responsible 
level in the Department. You can get along. You can talk. You 
can have conversation. You can understand people. You cannot 
negotiate. You cannot really deal on, let us say, complex or 
sensitive matters, I think as Ambassador Neumann was talking 
about.
    So I, myself, have some questions about the designations 
and what we think what they mean. In a number of instances, as 
Ambassador Neumann was saying, I think the language designation 
for particular jobs in certain countries probably needs to be a 
four-four level or something close to that and we have to 
really pay attention, because, generally speaking, that three-
three level is not really professional competency.
    I learned Russian. I taught myself Russian. I got to a 
three-three level. I could do a lot. It was very valuable. I 
was a better officer as a result. I could not negotiate and do 
complicated issues in Russian, and that applies for other 
languages, as well.
    So I think that whole system today needs to be recalibrated 
in light of today's demands, and different for different 
countries, depending what kinds of issues the United States 
needs to negotiate with that country. So we have to be a lot 
less cookie-cutter and more customized, and as Ambassador 
Neumann said, that is not easy, but I think we need to do it.
    Senator Akaka. Well, thank you.
    I want to ask a final question to both of you. The GAO has 
repeatedly recommended that the State Department develop a 
comprehensive strategic plan regarding foreign language 
capabilities. What elements do you believe should be in the 
State Department's foreign language strategic plan?
    Ms. Johnson. Well, first of all, we certainly agree, Mr. 
Chairman, that it would be valuable to develop that sort of 
strategic plan. So we strongly support the GAO recommendation.
    Now, as to what elements, and I am just going to sort of 
speak right now my own feelings responding to that, I think the 
elements can be drawn from several of the comments that we have 
made here this afternoon, that the language training--first of 
all, our methodology needs to be looked at, and whether it is 
all at FSI or whether we draw on universities or in-country 
training.
    Then we need to look at who we are training for what. What 
are we really training this officer to do in that country?
    Third, I think we need to look at who we are hiring to do 
that training. Maybe we also need to look at the range of 
languages that we are training in and at what levels, because 
we train in a lot of languages and maybe we need to reconsider 
that because there are costs associated with all of this.
    So, I mean, there are a number of elements that should be 
addressed in a comprehensive strategy and we would be happy to 
give further thought to that and get back to you on it or the 
GAO or the Department. We would like to be involved in some way 
and to assist the Department in doing that study, that kind of 
a study.
    Mr. Neumann. I agree, Mr. Chairman. I think we need to look 
again at what are we trying to do. That is the starting point. 
I think we have been hampered over the years because our 
resources were so few that when we began to talk about things 
like that, we then had to have a kind of procrustean bed 
exercise in which we then hammered the result back in to the 
resource and the form available.
    I think now we are getting to a place where we need to do 
an unconstrained review and the results are going to be very 
different for different languages, for different countries. We 
have always, in my experience, had a great reluctance to 
designate language positions at the four-four level because 
that drives another whole level of resources that FSI didn't 
have.
    So I think this exercise probably has to be done really in 
two parts. One is what are you trying to accomplish, and then 
the how do you accomplish it so we don't get our feet tangled.
    It is an excellent idea. I would only add the caution that 
it shouldn't become a straightjacket because that needs change. 
We close posts. We open posts. Proficiencies change. We get 
into wars. So we should do a plan--we should do a strategic 
plan. We shouldn't either delude or lock ourselves into the 
belief that it is going to be a perfect plan. Thank you.
    Senator Akaka. Thank you very much. Your experience and 
your service, as reflected in your responses, have been very 
valuable to this Subcommittee and I want to thank you.
    We are committed to trying to make a difference in this 
area, and it is clear to me that this Administration is firmly 
committed to reenergizing U.S. diplomacy and understands the 
need to invest in diplomatic readiness. I am hopeful that the 
State Department will eliminate its language and experience 
gaps with its planned increase in Foreign Service Officer 
staffing. It should also commit itself to taking a more 
strategic approach to meeting its current requirements and 
preparing to respond to new challenges.
    We will keep the hearing record open for one week for 
additional statements or questions other Members may have. And 
again, I want to thank you very much for your part in this 
hearing.
    This hearing is adjourned.
    [Whereupon, at 4:34 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
